<html>
<title> - IRELAND'S CHAIRMANSHIP OF THE OSCE</title>
<body><pre>[Joint House and Senate Hearing, 112 Congress]
[From the U.S. Government Publishing Office]




 
                         IRELAND'S CHAIRMANSHIP


                              OF THE OSCE

=======================================================================

                                HEARING

                               before the

            COMMISSION ON SECURITY AND COOPERATION IN EUROPE

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

                            FEBRUARY 8, 2012

                               __________

                       Printed for the use of the
            Commission on Security and Cooperation in Europe

                             [CSCE 112-2-3]
                             
                             
                             
                             
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]                            
                             


                Available via http://www.csce.gov
                   
                         ____________
                   
                   

                  U.S. GOVERNMENT PUBLISHING OFFICE
 95-399 PDF                WASHINGTON : 2015             


_________________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Publishing Office,
      Internet:bookstore.gpo.gov. Phone:toll free (866)512-1800;DC area (202)512-1800
     Fax:(202) 512-2104 Mail:Stop IDCC,Washington,DC 20402-001
                   
                   
            
                   
                   
                   
                   
                   
                   
                   

            COMMISSION ON SECURITY AND COOPERATION IN EUROPE

                    LEGISLATIVE BRANCH COMMISSIONERS

               HOUSE

                                                   SENATE

CHRISTOPHER H. SMITH, New Jersey,        BENJAMIN L. CARDIN, Maryland, 
  Chairman                                Co-Chairman
JOSEPH R. PITTS, Pennsylvania            SHELDON WHITEHOUSE, Rhode Island
ROBERT B. ADERHOLT, Alabama              TOM UDALL, New Mexico
PHIL GINGREY, Georgia                    JEANNE SHAHEEN, New Hampshire
MICHAEL C. BURGESS, Texas                RICHARD BLUMENTHAL, Connecticut
ALCEE L. HASTINGS, Florida               ROGER F. WICKER, Mississippi
LOUISE McINTOSH SLAUGHTER,               SAXBY CHAMBLISS, Georgia
New York                                 MARCO RUBIO, Florida
MIKE McINTYRE, North Carolina            KELLY AYOTTE, New Hampshire
STEVE COHEN, Tennessee
                        
                              

                     EXECUTIVE BRANCH COMMISSIONERS

                 MICHAEL H. POSNER, Department of State
               MICHAEL C. CAMUNEZ, Department of Commerce
               ALEXANDER VERSHBOW, Department of Defense

                                  [ii]
                                  
                                  
                                  
                         


                         IRELAND'S CHAIRMANSHIP

                              OF THE OSCE

                              ----------                              

                            February 8, 2012
                              COMMISSIONER

                                                                   Page
Hon. Christopher H. Smith, Chairman, Commission on Security and 
  Cooperation in Europe..........................................     1

                                WITNESS

Eamon Gilmore, Deputy Prime Minister and Minister of Foreign 
  Affairs and Trade, Republic of Ireland.........................     4

                               APPENDICES

Prepared statement of Hon. Christopher H. Smith..................    20
Prepared statement of Hon. Benjamin L. Cardin....................    21

                                 [iii]


                         IRELAND'S CHAIRMANSHIP



                              OF THE OSCE

                              ----------                              


                            February 8, 2012

           Commission on Security and Cooperation in Europe

                                             Washington, DC

    The hearing was held at 11:30 a.m. in room B-318, Rayburn 
House Office Building, Washington, DC, Hon. Christopher H. 
Smith, Chairman, Commission on Security and Cooperation in 
Europe, presiding.
    Commissioner present: Hon. Christopher H. Smith, Chairman, 
Commission on Security and Cooperation in Europe.
    Witness present: Eamon Gilmore, Deputy Prime Minister and 
Minister of Foreign Affairs and Trade, Republic of Ireland.

HON. CHRISTOPHER H. SMITH, CHAIRMAN, COMMISSION ON SECURITY AND 
                     COOPERATION IN EUROPE

    Good morning. And we know that some members of the 
Commission are en route, so I don't want to delay you, Mr. 
Foreign Minister, so we will start but they will be here 
shortly.
    I want to welcome everyone joining us this morning, 
especially Minister Gilmore, the Foreign Minister of Ireland 
and Chair-in-Office for the Organization for Security and 
Cooperation in Europe.
    It is a privilege to have you testify before the Helsinki 
Commission today, Mr. Minister, on Ireland's leadership of the 
OSCE. You are continuing a tradition that we have followed for 
more than a decade of hearing directly from the country holding 
the chairmanship of the OSCE.
    While today many countries in Europe are inwardly focused 
on economic crises--and that goes for the U.S. as well--the 
world still cries out for global leadership, and Ireland has 
stepped up to the plate, accepting the 2012 chairmanship of 
Europe's largest regional security organization, the OSCE, 
which does its best work in promoting human rights, democracy, 
the rule of law and free elections.
    Ireland has, for a long time, been one of the most 
constructive countries within the OSCE, enhancing the 
credibility of the organization it now leads. Mr. Minister, I 
thank you and your government for taking on the 
responsibility--and it's a huge responsibility--to lead the 
OSCE.
    Mr. Minister, the Helsinki Commission has a long history of 
engaging with the OSCE, both through and in cooperation with 
the U.S. Department of State, and independently. And, as 
Chairman, I am very happy with the priorities you have set for 
the Irish chairmanship, particularly the emphasis on Internet 
freedom and your plans to hold a meeting this year on that 
issue.
    I've recently introduced and am preparing to mark up a bill 
in my subcommittee, the Global Health, Global Human Rights and 
Africa Subcommittee, known as the Global Online Freedom Act, 
which counteracts the efforts of many governments, including 
some in the OSCE, to purchase U.S. technology to transform the 
Internet into a tool of censorship and surveillance.
    Earlier versions of this legislation were also introduced 
in the European Parliament, so I look forward to working with 
you on this issue, and I think we now have the best draft ever, 
that really and very incisively goes after this witting or 
unwitting cooperation with dictatorships in finding, 
apprehending and putting into prison dissidents and people who 
are seeking democracy.
    Your ideas for drawing on Ireland's experience in Northern 
Ireland's peace process in reference to protracted conflicts 
elsewhere in the OSCE region also connects a long-standing 
Commission priority.
    Since the mid-1990s we have held, either in this Commission 
or in my subcommittee--I chaired those hearings--13 hearings on 
Northern Ireland's peace process, keeping a special focus on 
the police reform. And the problem of policing, if it went 
unaddressed, would have probably unraveled the entire peace 
process and the Good Friday Agreement.
    Perhaps the key issue the Commission will be pursuing in 
the OSCE this year is international parental child abduction. 
Last year the Parliamentary Assembly passed a resolution urging 
the OSCE to take up the issue of international parental child 
abduction, and urging a ministerial decision on that issue.
    I believe the U.S. government agrees that this is an issue 
which could benefit from a ministerial decision this year. That 
is, the benefit would go to the children, who suffer greatly. 
``Parental alienation'' is the term of art given to us by the 
experts in psychology. It is a very real and a very significant 
form of child abuse. And governments and national courts need 
to do more to live up to their obligations under The Hague 
Convention.
    Another important issue will continue to be the fight 
against anti-Semitism, which, following a Commission hearing in 
May of 2002, we worked to get the issue of anti-Semitism as a 
front-burner issue, resulting in a series of high-level and 
ministerial conferences on anti-Semitism and a ministerial 
declaration on combating anti-Semitism, the implementation of 
which has been sadly lacking. Many countries have been very, 
very infirm in terms of their response, even to the chronicling 
of this horrific millenniums-old abuse.
    The work of battling anti-Semitism is now being led by the 
Personal Representative Rabbi Andy Baker, and I can't emphasize 
too strongly how important it is to support his work, and I 
know you do, and the work of the other personal representatives 
to do--and to do otherwise by any of us would be a tragic step 
backwards.
    I know Rabbi Baker personally. I've known him for many 
years. He was instrumental in helping us craft the Berlin 
language. I remember when certain impasses were being reached 
as to what the actual text ought to look like. Now, he was, you 
know, brilliant in coming up with the language that really made 
all the difference in bringing that consensus to bear on 
combating anti-Semitism, which is only getting worse, as we all 
know.
    I plan on chairing a hearing on UNRWA very shortly, and the 
textbook issue. I've done it before. We'll be doing it again, 
which, sadly, in the Palestinian refugee camps where the 
textbooks are rife with anti-Semitic, anti-Israeli and anti-
American rhetoric. And even when Fatah was in charge of the 
PLO, they too allowed Hamas--or Hamas had control of education. 
And if you train kids to hate--remember that famous song in 
``South Pacific''? You must be taught about hatred being passed 
on generation to generation. I've read the textbooks, of course 
the English translations, and they are true and authentic. We 
even had a witness right here, standing where Mr. Glynn is 
standing, who brought textbooks with him and read from them, 
and they were rife with anti-Semitic hatred.
    And if you tell 12-year-olds and 8-year-olds and hold pep 
rallies about how blowing oneself up is in the interest of the 
Palestinians and the interest of Islam, you will get radical 
child soldiers, as we've seen with Joseph Kony's group in 
Uganda and elsewhere, the Lord's Resistance Army. They get 
radicalized.
    So we will be focusing on that further in our Commission 
with a hearing that's set--Mark, do we have a date for that?
    Mr. Milosch. We have early March.
    Mr. Smith. Early March for that hearing. So it's something 
I think we all need to be looking at.
    Anti-Semitism is an aspect of larger problems of religious 
freedom in the OSCE region today. A recent example of 
intolerance took place in Macedonia. I met with a number of 
parliamentarians from Macedonia just last week, where a local 
Muslim set fire to a local church, reportedly in response to 
the mocking of their own faith by other locals.
    We're all against the mocking of anyone's faith, but 
setting fire to a church, that is outrageous. It takes the evil 
to a whole new level, and I note with sadness how few political 
leaders outside of Macedonia responded by condemning this 
violence against a Christian church.
    I'm particularly concerned about the Coptic minority in 
Egypt. As the largest and one of the oldest minorities, they're 
suffering portends suffering throughout the region. And make no 
mistake about it, they are suffering. Coptic women and girls, 
some as young as adolescents, are being systematically lured 
from their families or kidnapped off the street corners and 
forced to change their religion and forced to marry outside of 
their community.
    They frequently suffer physical and psychological abuse, 
including rape, beatings, forced isolation, and lack of 
personal freedom, both before and after their so-called 
marriage/conversion. The drugging of victims appears to be 
commonplace.
    Michele Clark, who is well-known in OSCE circles for the 
great work she did at ODIHR, working on human trafficking--she 
is an internationally recognized anti-trafficking expert and 
advocate on behalf of vulnerable women--estimates that this 
happens to thousands--thousands of Coptic women and girls each 
year. And we believe it is getting worse with the rise of 
Islamist groups, particularly now after the elections in Egypt.
    We know of no instance where the government has prosecuted 
anyone connected with disappearances. And of course Egypt is 
part of our Mediterranean partnership and hopefully a real 
focus will be placed there.
    Punitive tax on Copts was commonplace under Mubarak, and I 
and many colleagues have raised that with Mubarak both in 
Cairo, on trips there, and every year when he made his trip 
here, but now it's becoming the hallmark of the new regime. We 
had hoped for better. We still hope. And we have tied Egypt's 
1.3 billion [dollars] in aid to its treatment of religious 
minorities.
    There are a number of conditionality clauses in the most 
recently enacted foreign ops bill. One of them is that there be 
no abrogation of the Israeli-Egyptian peace treaty. Another is 
religious freedom and especially the focus on religious 
minorities. We expect attacks to be prosecuted and attackers to 
spend significant time in jail.
    Mr. Minister, one of the reasons the United States so 
values the OSCE is that its work touches on so many human 
rights issues. And I believe it's why you and the Irish 
Government, which certainly values human rights just as highly 
as the U.S. government--you are truly a beacon--will find your 
work this year rewarding. And I look forward to your 
presentation.
    I would like to note, in the audience--I'm very pleased to 
note that the Minister is joined here today by David Donoghue, 
political director of Ireland's Department of Foreign Affairs; 
Brian Glynn, the deputy head of Ireland's OSCE task force.
    And we are also joined by Ian Kelly, Ambassador Kelly, the 
head of the U.S. mission to the OSCE. Ambassador Kelly, thank 
you for the good work you are doing on behalf of the United 
States. And, as always, you are welcome and considered a great 
friend of this Commission.
    Foreign Minister Gilmore, please proceed.

 EAMON GILMORE, DEPUTY PRIME MINISTER AND MINISTER OF FOREIGN 
             AFFAIRS AND TRADE, REPUBLIC OF IRELAND

    Chairman Smith, Commissioners, ladies and gentlemen. Thank 
you, Chairman, and thank you for your introduction and for your 
opening statement.
    I'm delighted to be here today as Chairperson-in-Office of 
the OSCE. The Helsinki Commission has made a hugely important 
contribution to the work of the OSCE throughout the years, and 
I wish to pay tribute to the dedication of the Commission and 
all of its staff who have participated in these efforts.
    The United States is a crucial player within the OSCE, and 
I know I can rely on its support during our chairmanship. It is 
of course always a pleasure for me to visit Washington, given 
the special ties which link our two countries. And I will 
particularly like to thank you, Chairman Smith, long-time 
friend of Ireland, champion of human rights in Northern Ireland 
and around the globe, for your kind invitation to me to join 
you today.
    This is Ireland's first time to chair the OSCE. We view the 
task as a unique opportunity to make a tangible contribution to 
the promotion of European peace and security.
     In 1975, the Helsinki Final Act heralded a new vision in 
European security, pledging to end East-West divisions and to 
build a more secure Europe. I think we can all agree that that 
vision has largely been realized. The cooperative and inclusive 
nature of the OSCE is its best asset, and it continues to play 
a significant role in conflict resolution and in the promotion 
of peace, security and respect for human rights and the rule of 
law.
    That being said, there is no room for complacency. The need 
for effective multilateralism is as compelling today as it was 
all those decades ago, particularly now as we faced the most 
challenging political and economic crisis of recent times.
    As we look towards the 40th anniversary of the Helsinki 
Final Act in 2015, we have an opportunity to reflect on the 
contribution which the OSCE can make in tackling these global 
challenges and in ensuring its continuing effectiveness.
    Mr. Chairman, I want to turn to some of the priorities of 
the Irish chairmanship. We will be ambitious in progressing 
work across all three dimensions, and we will strive to achieve 
concrete results and to deliver tangible benefits through a 
small and balanced package of decisions and declarations for 
adoption at the Dublin Ministerial Council in December.
    Ireland has always attached a particular importance to the 
human dimension, and we will aim to make progress in this 
field. Of course, the Helsinki Commission has made a hugely 
important contribution in this area.
    The continuing threat to fundamental freedoms and human 
rights in a number of OSCE participating states is a cause of 
real concern. You have mentioned some of the issues of greatest 
concern. I can assure you that the Irish chairmanship is 
committed to addressing specific instances where OSCE human 
dimension commitments are not being met, working closely with 
the relevant OSCE institutions.
    As you know, in Astana, participating states reaffirmed 
categorically the human dimension commitments are of direct and 
legitimate concern to all participating states and do not 
belong exclusively to the internal affairs of states.
    Our key priority in this dimension will be Internet 
freedom. As in other parts of the world, the threat to freedom 
of expression online is ever-present in the OSCE region and 
regrettably appears to be growing.
    Our intention is to highlight the simple fact that human 
rights and fundamental freedoms do not change with new 
technologies but extend into the digital age. We will work to 
ensure that existing OSCE commitments in relation to freedom of 
expression and freedom of the media apply to all forms and 
means through which they are exercised.
    As part of these efforts, we intend to organize a human 
dimension meeting in Dublin in June, with involvement of key 
stakeholders such as civil society and ICT companies. I do not 
think it is an exaggeration to say that many governments, 
including my own, are still grappling with the implications of 
rampant technological change. We can all benefit from an in-
depth discussion of this kind.
    Human dimension meetings are also planned on a range of 
other topics. I believe that there will be particular interest 
in our proposal to focus on racism, discrimination, and 
intolerance in sport, in view of the European soccer 
championships in Poland and Ukraine this year, and the Olympic 
Games in London.
    We are all too familiar with the manifestations of racism 
and other forms of discrimination and intolerance against 
sportsmen and -women. The risk that younger sports fans may 
inherit prejudices or have them reinforced by their role models 
is all too evident.
    Nor is this problem restricted to the sports field. We 
should work harder to address racism, intolerance and 
discrimination in coaching, management, and other areas in the 
sporting world. Happily, sport lends itself to bringing forward 
good practices, and we aim to highlight some of these 
practices.
    We don't need to look very far for good examples. A very 
good one is the work of Ambassador Dan Rooney, the United 
States ambassador to Ireland, who, in introducing the Rooney 
Rule in the NFL helped to achieve a large increase in the 
number of African-American coaches.
    As chairmanship, we will also continue to prioritize the 
OSCE's efforts to fight intolerance and discrimination based on 
religion or belief, a subject which you addressed 
comprehensively in your opening remarks.
    One of the first decisions I made in January was to appoint 
three personal representatives to deal inter alia with 
intolerance and discrimination against Jews, Muslims, 
Christians and members of other religions.
    I am very pleased that Rabbi Andrew Baker of the United 
States agreed to continue his excellent work in combating anti-
Semitism alongside Senator Akhmetov of Kazakhstan, and Mrs. 
Justice Catherine McGuinness, a retired judge of the Irish 
Supreme Court.
    I was also delighted to appoint a special representative on 
gender issues, Ms. June Zeitlin. Ms. Zeitlin, who currently 
works at the Leadership Conference on Civil and Human Rights 
here in Washington, DC, has been a leader on women's issues for 
more than 30 years, with extensive public policy experience in 
the United States and globally. We look forward to her work in 
the year ahead to promote women's rights and gender equality in 
the OSCE region, working together with the Gender Section in 
the OSCE Secretariat and the gender advisor in ODIHR.
    Our other human dimension priorities include trafficking in 
human beings, freedom of association and assembly, professional 
and ethical standards in democratic life, and freedom of 
religion or belief. It is my hope that an early agreement can 
be reached on the package of meetings so that detailed planning 
for the individual events can begin as soon as possible.
    Ireland is also committed to taking forward, in parallel, 
the process of review of human dimension meetings, which was 
begun under the Lithuanian chairmanship. We will provide a 
space for discussion of all proposals aimed at improving the 
functioning of human dimension meetings, with a view to 
concluding these discussions in the second half of 2012.
    The chairmanship is conscious that hard choices may have to 
be made and that delegations will be called upon to show 
flexibility and a spirit of compromise. We hope that you will 
put your trust in the chairmanship.
    I should like to mention just one more area of work in this 
dimension that is so crucial to the OSCE's work as a community 
of states committed to respect for human rights, democracy and 
the rule of law.
    Ireland will strive to provide all necessary support to 
ODIHR and the Parliamentary Assembly of the OSCE in the crucial 
area of election observation. As has been the case to date, we 
hope that states holding elections in 2012 will issue timely 
invitations to ODIHR to organize election missions. Of course, 
the United States itself holds elections later this year, and 
we trust that the U.S. authorities will meet their OSCE 
commitments in this regard. We will also work to ensure 
appropriate followup to recommendations made in election 
observation mission reports.
    Mr. Chairman, the confidence and security-building measures 
adopted within the political-military dimension remain central 
to the enhancement of security in the OSCE region. Our 
collective goal, as agreed in Astana, is to work towards a 
genuine security community.
    To help us to reach that goal, we will call on 
participating states to reflect on the building blocks 
available to us in the areas of arms control, conflict 
prevention and resolution, and transnational threats. This will 
be the theme for the Annual Security Review Conference in June.
    We will also continue the good work carried out last year 
in updating the Vienna Document, and we'll work with the 2012 
FSC chairs in this regard. We will take forward work on 
tackling transnational threats such as organized crime, cyber 
threats, drugs, terrorism and trafficking, challenges which we 
face in all of our societies.
    The economic and environmental dimension has a particular 
resonance today, given the global economic and environmental 
challenges with which we are all confronted. Our central theme 
for the economic and environmental forum will be the promotion 
of security and stability through good governance. There will 
be a particular focus on measures to counter corruption, money 
laundering, and terrorist financing.
    The first preparatory conference took place in Vienna 
earlier this week, entitled ``Anti-Money Laundering and 
Countering the Financing of Terrorism.'' The next will be held 
in Dublin in April. We will also initiate a review of the 2003 
Maastricht Strategy Document to ascertain whether it needs to 
be adopted, and to take into account evolving economic and 
environmental challenges.
    Conflict resolution remains at the core of the OSCE's 
mandate, a fact which was highlighted by the agreement of the 
conflict cycle decision in Vilnius. We will take forward the 
implementation of this decision, which will assist the OSCE to 
deepen its involvement in all phases of the conflict cycle, and 
to strengthen its capacity to tackle conflict, from prevention 
to resolution.
    As Chairperson-in-Office, I will seek to make progress 
towards lasting settlements of a number of conflicts in the 
OSCE area. I have nominated two special representatives, 
Ambassador Padraig Murphy and Ambassador Erwan Fouere, to 
assist and advise me on these issues. They are cooperating with 
international actors on the ground, as well as maintaining 
close contact with the parties. The chairmanship will seek in 
particular to promote confidence-building measures and to 
address humanitarian needs.
    As regards Moldova and Transnistria, we look forward to 
welcoming the participants in the 5-plus-2 talks to Dublin 
later this month. We stand ready to build on the momentum 
created following the successful resumption of official talks 
at the end of last year.
    Ireland strongly supports the Geneva discussions as the 
best forum for facilitating engagement and providing a way 
forward in relation to the situation in Georgia. The first 
discussion under our chairmanship will take place next month.
    We also commend the continuing work of the Minsk Group co-
chairs in addressing the long-running dispute over Nagorno-
Karabakh. I look forward to working closely with Ambassador Bob 
Bradtke and the other co-chairs and members of Minsk Group 
throughout my term in office.
    Mr. Chairman, as you well know, we in Ireland can empathize 
only too well with those who are engaged in seemingly 
intractable conflicts. In Northern Ireland, the courage of 
leaders on both sides to negotiate and make compromises in the 
interests of peace, together with the perseverance of the Irish 
and British Governments, as well as international support, in 
particular from the United States, has resulted in a lasting 
settlement.
    While each conflict situation is different, I believe that 
sharing this experience can support and encourage efforts to 
resolve conflicts in the OSCE region. With this in mind, I will 
host a conference in Dublin on the 27th of April, which would 
present aspects of the Northern Ireland example as a case 
study. I will be joined at the conference by the deputy first 
ministers of Northern Ireland, and I am pleased that Senator 
George Mitchell will also share his experience with us.
    Mr. Chairman, I will now turn to some current issues within 
the OSCE region. As I stated earlier, I am committed to 
addressing specific instances where OSCE commitments are not 
being met, and we will work closely with all participating 
states to ensure that their commitments are being fulfilled.
    I would like to mention briefly the situation in Belarus. 
Continuing erosion of human rights in Belarus is a cause for 
concern. By prosecuting human rights defenders and limiting 
freedom of association, Belarus is regrettably falling short of 
its OSCE commitments.
    There is no doubt that a reinstatement of an OSCE presence 
in Belarus in some form will be an important step in the right 
direction and will send a positive signal to the international 
community. I will maintain an open channel to the Belarus 
authorities throughout our chairmanship.
    Turning to our wider neighborhood, we can see the changes 
that are underway in the Southern Mediterranean. The OSCE 
stands ready to share its experience with democratic 
transitions, where sought, and through a partnership approach. 
I welcome the positive Ministerial Council decision on 
Mongolia's application to become a participating state, and we 
will aim to move this forward during our chairmanship.
    As we approach 2014, the OSCE will have an increasing role 
to play in providing assistance to Afghanistan, building on the 
work achieved to date. We will work to implement the decision 
on expanding the OSCE's engagement with Afghanistan through 
concrete projects across all three dimensions, and in close 
cooperation with other international actors and organizations 
in the region.
    As I said at the beginning, the cooperative and inclusive 
nature of the OSCE means that it is uniquely positioned to play 
a significant role in building a comprehensive security 
community. A busy year lies in store, both for the OSCE and the 
chairmanship, and I will be in New York tomorrow to present our 
program to the United Nations Security Council.
    I am confident that through effective cooperation with all 
relevant actors, we can achieve good progress during 2012. 
Thank you for your attention.
    Mr. Smith. Chairman Gilmore, thank you very much for your 
excellent statement--very comprehensive. And I know my 
colleagues and I are all looking forward to your leadership. We 
know it will be robust and very effective. Just a couple of 
questions, if I could, on some specific issues.
    You mentioned Belarus, and Belarus has been the subject of 
not only hearings but trips on our behalf. I and some 11 other 
members were in Belarus a couple of years ago--met with 
Lukashenko. It was a very disappointing, to say the least, 
meeting. It was more of a he spoke, he expected us just to 
listen. And it was more of a diatribe rather than a discussion.
    But, that said, you know, last year 14 OSCE states invoked 
the Moscow Mechanism. And I'm wondering if there's any 
indication that Belarusian authorities have acted upon any of 
the reports, recommendations.
    And, secondly, just good news. On January 3rd, the Belarus 
Democracy Act--and I am the sponsor of that legislation--was 
signed into law by President Obama. It reiterates, strengthens 
a number of provisions of our original law that we passed in 
2004.
    And the fact that both the Europeans and the United States 
have lists of abusers that are denied visas, I think it makes 
it very clear that we're not kidding, that Lukashenko 
increasingly is isolated. And obviously many of your friends 
and mine today are languishing in Lukashenko's prisons.
    We had a hearing a few months ago, and one of the 
presidential candidates testified, and he talked about how he 
was stripped virtually every day, humiliated and degraded by 
the KGB, and talked about just the awful treatment that he and 
other political dissidents--candidates, men and women who just 
simply sought to leave their country because of that--found 
themselves in prison.
    He was one of the lucky ones who got out. There were many 
others who received long prison sentences. So maybe if you 
could spend a little time on the mechanism, the report, and 
what you think we can do even further to promote democracy and 
respect for human rights in Belarus.
    And I'd just say, parenthetically, I have applied for a 
visa. I've been denied. I would love to go and meet with 
Lukashenko again--I'll give him a copy of our bill--and bring 
some focus, if you will, and Congress' angst to his ongoing 
persecutions of people simply because they disagree with his 
dictatorship.
    Sir.
    Mr. Gilmore. Thank you. I thank the Chairman.
    I want to address first of all an issue which you raised in 
your opening statement, and that is the issue of international 
parental child abductions.
    As a party to the Hague Convention, Ireland shares concerns 
about international parental child abduction, and we are keen 
to use the chairmanship to raise awareness of the Hague 
Convention and to highlight the importance of ratification and 
implementation of the convention by all OSCE participating 
states.
    Regarding the possibility of us seeking a Ministerial 
Council decision in Dublin, we need to assess whether it will 
be possible to build the necessary consensus. Obviously, to 
move forward without the strong possibility of securing 
agreement could be counterproductive, and we're encouraging 
participating states who wish to see ministerial decisions on 
specific topics adopted at Dublin to work closely with other 
member states--participating states in the year ahead to build 
support.
    With regard to Belarus, there is no doubt that the 
situation with regard to human rights and fundamental freedoms 
in Belarus has continued to deteriorate since the presidential 
election in 2010. The Moscow Mechanism, as you have said, has 
been invoked, but the Belarus authorities have not acted on the 
recommendations that have been made.
    The election observation mission, which is organized by the 
OSCE's office, ODIHR, was extremely critical of the 
presidential election, which was characterized by fraudulent 
activities. Many opposition figures and human rights activists 
were arrested after the election.
    Since then, the environment for the opposition has become 
more difficult, with legislation adopted on the legal 
requirements for gatherings and the prohibition on political 
parties and NGOs from keeping assets abroad. This has been 
accompanied by increased harassment of human rights defenders.
    I recently issued a statement expressing concern about the 
case of the human rights defender, Ales Bialiaski, whose appeal 
against his conviction for tax evasion on charges that were 
almost certainly politically motivated was rejected. Bialiaski 
is now serving a sentence of four and a half years in a prison 
camp.
    Ireland condemns the harassment of opposition and human 
rights organizations in Belarus. I regret that the situation in 
Belarus has deteriorated. Nevertheless, as OSCE Chair-in-
Office, I have to keep a channel open to the Belarus 
authorities.
    And I might add that the situation in Belarus is discussed 
regularly at the European Union Foreign Affairs Council, of 
which obviously I'm a member state, and sanctions have been 
considered there; indeed, decisions made in relation to 
sanctions.
    And, obviously, in our capacity as a member state of the 
European Union, we identify and support with those. But in my 
capacity as Chair-in-Office of the OSCE, I think it's important 
that we keep the channel open to Belarus, maintain that 
communication and hope that we can use our good offices--
because at the end of the day, what we are talking about, our 
standards which have been agreed by all participating--
including Belarus.
    The OSCE--what has been agreed by the OSCE, agreed by 
consensus--it's right across the board--and the obligation is 
on Belarus to comply with those standards.
    Mr. Smith. Thank you for that excellent answer.
    Let me ask you, with regards to--and I thank you for your 
comment on international child abduction. In 2000 I actually 
wrote a law on international child abduction. I and many 
members of Congress thought that, you know, with the Hague 
convention it was largely taken care of, that the issue, you 
know, had a mechanism--while not enforceable, it binded 
countries that signed it.
    And I got my big education on a case that arose out of New 
Jersey. A man by the name of David Goldman was not even allowed 
to see his own abducted son. His wife had passed away. A man, 
not the father, had custody. And an expert on the Hague 
Convention in Rio actually used his knowledge of the Hague 
Convention to the detriment of all attempts to get his son 
back--David Goldman.
    I traveled with him several times. I met with members of 
the supreme court. There were some very good jurists in both 
Brasilia and in the supreme court and in Rio de Janeiro. But at 
the end of the day, where there was a determined abducting 
party, they were able to use--and this happens all over the 
world, as you know--appeal after appeal until the child ages 
out and then there's almost no chance, other than a voluntary 
reuniting, to get that son or daughter or siblings back.
    I found, to my shock and dismay, that we had very few tools 
in the U.S. Government to--other than jawboning and pretty much 
pleading, to say please send our kids back--we've got about 
2,500 children--Japan never sends anybody back. There was a 
recent case but it was filled with extenuating circumstances. 
But once those kids get there, they don't come back. And Japan 
obviously is not a signatory.
    In two weeks I'm marking up a bill--maybe it will be 
three--again, International Child Abduction Prevention Act of 
2012. It was my lessons learned and my staff's lessons learned 
from what we can't do as a government to try to effectuate the 
return of these children.
    And as I said earlier, it is under-appreciated just how bad 
parental alienation is, the poisoning of that child's mind vis-
a-vis the left-behind parent. And so it's been a wakeup call to 
me and I think many of my colleagues.
    Our embassy did a great job with welfare and whereabouts. 
They're totally empathetic to the left-behind parent. The 
bottom line is I know that--and, you know, Ambassador Kelly is 
working hard. It would be very important if that could be a 
ministerial decision, because we need to relook at this.
    The Hague Convention reads beautifully, but how do you 
enforce it? We're going to take some of our penalties that we 
learned work on religious freedom and in the area of 
trafficking--and I wrote the trafficking laws for the U.S., and 
I know they're working--to try to get states to realize it's a 
government-to-government fight. Otherwise if it's left-behind 
parent versus government indifference or complicity, they lose. 
They lose almost every time.
    So I would ask you and appeal to you--and I know you're 
empathetic--do everything you can to get that on the docket 
because these kids are being hurt. It is child abuse in plain 
sight. That if we do more in the OSCE--who better than the OSCE 
to do so? So that's pretty much an appeal as well as a 
question.
    Internet freedom, if I could. I know that you're very 
strong on that issue. I know Russia blocked the ministerial 
decision on this subject in Vilnius last December. If you might 
want to speak to that further because obviously we have a 
Global Online Freedom Act that we will mark up in a few weeks 
as well.
    I'm the one who chaired the hearings that had Google, 
Microsoft, Cisco and Yahoo all taking the oath. And most of it 
was focused on China, but we know that Belarus--we know that 
many countries are using the Internet increasingly to 
completely stop dissidents and human rights activists, and to 
find and put them into prison as a result of what they post 
online or what their emails might contain.
    So that's a very important issue, and I would hope that at 
the meeting that will be held on the Internet, there will be a 
focus on anti-Semitic hate and some of the other issues that 
continue to exacerbate that problem. If you just want to 
comment or----
    Mr. Gilmore. Well, thank you, Chairman.
    First of all, in relation to the issue of child abduction--
and you have, I think, described very well what can happen and 
what is happening in practice and how courts are used in 
different countries. The time elapses and the child grows up 
and alienation from parents is exacerbated.
    I have some experience of this as foreign minister of my 
country where our consular services are called upon. And this 
is something of course--we're dealing with this in, I suppose, 
a more modern and sometimes more complex set of circumstances 
where people's parentage of children of different countries--
parents from different countries, family arrangements, are 
somewhat more complex; in some cases perhaps sometimes less 
stable than had traditionally been the case. Very, very complex 
sets of circumstances arising and ending up in the courts, and 
very real human problems associated with it.
    Can we get a decision in relation to child abduction issues 
through the OSCE again? We operate on the basis of consensus, 
and if there's a willingness obviously on the part of 
participating states to work towards a decision on this, then 
certainly as chair-in-office I will be happy to work with that 
and to facilitate that. So it is an area that we have to keep 
under review.
    You raised the wider issue of human trafficking, and I 
referred to that in my contribution. I know that all of our 
OSCE partners are unanimous in the view that it is vital that 
the public is made aware, first of all, of the existence of 
this terrible crime, and that national authorities take the 
necessary step, legislatively and operationally, to deal with 
the perpetrators.
    Ireland has made significant progress in fighting this 
crime, which knows no boundaries. Our intention would be to 
organize a human dimension meeting during 2012, focused on 
labor trafficking, which is really a modern-day form of 
slavery.
    And in this regard, it's vitally important to highlight 
that perpetrators are not limited to those involved in the 
physical transfer of victims from one country to another, but 
includes those who recruit them, those who employ them, and 
those who exploit them in many other ways.
    In relation to the issue of Internet freedom and our 
intention to hold a conference on Internet freedom, I'm sure 
you regret that it wasn't possible to get agreement on this 
issue in Vilnius. The conference on Internet freedom which we 
planned to hold is scheduled to take place in Dublin in June.
    Our intention is to bring together experts from OSCE states 
from industry, from civil society, and to look at how the OSCE 
commitments, in relation to freedom of expression and freedom 
of the media, are being applied to the online world.
    Now, we're not seeking to agree to new commitments, but to 
ensure that the existing commitments apply seamlessly between 
offline and online worlds. The intention is to shine a 
spotlight on particular issues which might need more attention, 
such as the need for greater transparency by states in their 
request to--the various requests that they make to Internet 
companies for data.
    But I think the general principles that we've got to apply 
here are the principles in relation to freedom of expression or 
freedom of the media, which have already been agreed and 
accepted by the OSCE, and to look at how that can be applied to 
online media.
    Mr. Smith. OK. Part of what we're going to be doing in our 
Global Online Freedom Act is to focus on the censorship issue, 
but even more so on the selling of those capabilities by U.S. 
companies, and what due diligence, or lack of it, those who 
list on the U.S. Stock Exchange are doing relative to 
surveillance capabilities, to dictatorships and countries that 
really are using that capability just as they would use any 
other weapon to undermine or arrest and jail people who are 
just calling out for freedom of religion and democracy.
    On trafficking, if I could share a best practice which I'm 
sure you're familiar with but ask you if, during you chair in 
office, you could put some additional push behind it. At the 
parliamentary assemblies I've raised the issue repeatedly, as 
the OSCE special rep for trafficking, of what is a high-impact, 
low-cost effort to train flight attendants and others as to how 
to spot, whether it be labor or sex trafficking, while it's 
happening.
    And some outstanding flight attendants have actually saved 
people en route. One case was from Moscow to New York, where 
they noticed six women who were with one man, and it just 
looked awful and suspicious. En route, while the ladies were 
using the restroom, struck up a conversation, was sufficiently 
suspicious that they had the pilot call upon offloading. They 
interviewed and found out that all six were being trafficked.
    That has morphed into a very, very robust effort of 
training by Delta Airlines. Carlson, Hilton, Global Exchange 
Tours, others are all doing it. We've had some hearings here 
where we've heard just how--you know, situational awareness, 
how well it is working.
    Now the U.S. Department of Homeland Security has come up 
with a very fine training package which should be shared, I 
think, with all the OSCE countries, every country in the world. 
In talking to our friends in the Netherlands, some of our 
Parliamentary Assembly friends have brought that. And KLM is 
now doing it, or have made commitments to do so, as have a few 
other countries.
    So, you know, it's something Aer Lingus, all of us should 
be doing. And I think, you know, just perhaps having 
something--we'll give you all the information, as well as the 
new initiative by the U.S. Department of Homeland Security, 
which is outstanding. And it works. Eyes and ears--you know, 
close out the number of places. And they've got to transport 
them.
    You mentioned the labor trafficking, which is equally 
covered by U.S. legislation and Palermo protocol as well. When 
Rabbi Baker and I and Ambassador Kelly were in Prague for a 
very important summit on public discourse and anti-Semitism, I 
learned while I was there that there were a number of 
Vietnamese laborers of questionable origin in terms of how they 
got there.
    And I would note I've had two hearings on human rights in 
Vietnam. And Vietnam, like China, is now becoming one of the 
worst violators of labor trafficking and are sending people all 
over the world--mostly in Asia, mostly in Taiwan, but also, we 
believe, to Europe.
    And when I learned that--I have a bill up in two hours 
called the Human Rights in Vietnam Act, and it focuses on 
trafficking and the fact that we need to do much more to find 
out who these people are, how they got there.
    And we think there's a suspicion--we haven't been able to 
prove it--that many of those people in Prague, in and around 
obviously in the Czech Republic--may have been trafficked, 
because labor trafficking has become an extremely lucrative 
endeavor for the Vietnamese government.
    They're selling their people all over the world. And the 
first case prosecuted my law, the Trafficking Victims 
Protection Act of 2000, was a case involving Vietnam and 
American Samoa--labor trafficking, ultra-big sweatshop. So we 
know they're doing it, and they have not abated. They're 
getting worse.
    So if you could look into that, I'd appreciate that. But 
the airlines issue, it's camera-ready. It's all ready to be 
just rolled out, and that training can be extremely useful to 
everyone.
    Mr. Gilmore. Yeah, thank you. Thank you, Chairman.
    And, first of all, can I agree with you about the fine work 
that the Parliamentary Assembly is doing. And I think this is a 
very important dimension of the OSCE's work that the 
Parliamentary Assembly--which elected representatives of the 
people like you and I touch the concerns that people have. And 
that brings a particular perspective and a real focus to the 
work of the OSCE.
    It certainly is my intention to work closely with the 
Parliamentary Assembly during this year. And only last week we 
had president and the secretary general of the Parliamentary 
Assembly with us in Dublin and had very good discussions with 
them.
    I think in particular, and I think in relation to human 
trafficking, I think it is important that we use the best 
practice which is available, and I very much welcome the 
initiatives that are being taken on airlines, in training of 
flight attendants and so on to be on the lookout for the 
trafficking of people.
    Of course, not all of the trafficking is by air. You know, 
it may not be as easily detected. But it is difficult to travel 
from one end of a continent to another--one end of a land mass 
to another, however one does it, by road or rail or air, 
without somebody being aware that something is going on. And I 
think you're absolutely right that we do need to develop a best 
practice sense in that area.
    On the labor trafficking area, as I've indicated, this is 
an area where we intend to hold an event or a meeting on labor 
trafficking particularly. And, again, I think it's important 
that we look here at--that there is the trafficking, the actual 
trafficking aspect of the problem, where those who are directly 
involved in the trafficking per se. But I think there are 
issues here which we can address about the employment of people 
who are trafficked.
    People--individuals, households, companies, organizations 
who employ people who they know are from overseas, whom they 
know are in difficult circumstances and who employ them very 
often in pay and conditions which are significantly less than 
applied generally in the local economy, they must know that 
they are dealing with people who--I believe that they know that 
they are exploiting those people, and they must have doubts as 
to how those people came to be in the country in the first 
place.
    And I think that, you know, we need to put some focus on 
the employment side of labor trafficking. People, for example, 
who end up in domestic service in the homes of some of the 
great and the good sometimes, we need to--we need to sharpen 
our focus on that and to deal with that problem at source, at 
the point of employment.
    So I think there are obligations on participating states of 
the OSCE, who in many cases have minimum legal standards of 
labor protection to ensure that those are applied in a way that 
people who are trafficked are not--[inaudible].
    Mr. Smith. Thank you.
    Let me just ask one final question on the Ukraine, and with 
regards to former Prime Minister Tymoshenko's arrest. And with 
the upcoming October elections, can the Ukrainians meet a free 
and fair standard if that incarceration--or that 
disqualification, if you will, from even participating is not 
reversed?
    And, you know, your thoughts on that, because we're very 
concerned about the trend line, and I'm sure you are as well, 
in Ukraine. Freedom House has downgraded Ukraine from free to 
partly free because of this deterioration, and it seems to me 
that, you know, all of us are in favor of a free and democratic 
Ukraine and don't like the trend lines. Your thoughts?
    Mr. Gilmore. Well, thank you. I'm deeply concerned about 
the case of the former Ukrainian Prime Minister Yulia 
Tymoshenko. And these concerns relate to the outcome and 
conduct of her trial as well as the outcome of the appeal that 
concluded in December. Concerns have also been widely expressed 
about reports of the conditions of her detention, and I 
continue to encourage the Ukrainian authorities to address and 
to resolve these concerns.
    And I'm conscious of the fact that Ukraine will succeed 
Ireland as the Chair-in-Office of the OSCE. I believe that 
Ukraine's role in the OSCE is important, and I hope that in 
preparing for this role, the authorities in Kyiv will 
appreciate the need to address the significant concerns that 
have been widely expressed.
    There is, as you know, a proposal for an association 
agreement between Ukraine and the European Union that's 
currently awaiting initialing. I have long favored bringing the 
EU and Ukraine closer together. I think that's a sentiment 
shared by the great majority of the Ukrainian people.
    But this, however, is not an uncritical engagement, and the 
Ukraine-EU summit which took place in December was the occasion 
for some strong messages from the EU side, including some 
strong messages on the issue of Ms. Tymoshenko's case. It is an 
issue, certainly, that we're going to give very much to the 
fore or our talks and our discussions.
    Mr. Smith. Again, in closing, if I could just reiterate 
that strongest appeal to--and I know you will do this, so I'm 
talking to the choir but, to the greatest extent, backing the 
three religious freedom representatives. Many of us who follow 
religious freedom--and I've been in Congress now 32 years--I 
think it is getting worse, and demonstrably worse everywhere.
    You know, the number of anti-Semitic acts that are 
occurring in the U.S., particularly on our college campuses, is 
rising. And, you know, it's worth noting that--you know, 
sometimes people say, well, why the emphasis on anti-Semitic 
hate? In the United States--and you probably know this--the FBI 
tracks these acts of hate, and in their annual report, 
traditionally just under 75-or-so percent of all the incidents 
are directed against Jews, and under 10 percent directed 
against Christians, and under 10 percent against Muslims.
    And when you look at the disproportionality of the number 
of Jews that actually live in the U.S., the number far 
exceeds--any way you look at it, the focus is there, and we're 
seeing a rise in it. And you know as well in Europe it's the 
same.
    A few years ago we had a hearing with Natan Sharansky, the 
great leader, obviously, who was finally let out--and you know 
this; everyone knows it--by the KGB, did this zigzag because he 
just wouldn't follow orders that the Soviet Communists imposed 
upon him.
    Well, he came here twice and testified, and he brought with 
him a soap opera clip, two of them. And seeing is believing. I 
had never seen this before. And, as a matter of fact, I 
actually went to Perm Camp 35 where he was in the 1980s, right 
after he got out, and to see what this man had endured, the 
torture and the isolation, and to see how he never once wavered 
in his commitment to freedom.
    Well, he showed this video that is being now broadcast 
throughout Europe through satellite television, and all the 
modern means of communications. And he said, this is what they 
feed on--``they'' being many people in the Muslim world--and 
this gross, grotesque caricature of Jews that is painted.
    And they actually showed this little boy named Christopher 
having his throat slit and the blood pouring into matzoh. And 
he talked about blood libel and the other outrages committed 
against the Jewish people. This is Sharanksy. And he said, then 
they turn it into humor and they turn it into documentaries. 
And he said, this is what they feed on. And you wonder why 
these kids are so filled with hatreds towards Jews.
    And even Ahmadinejad's most recent statement, and the Great 
Leaders website, which I went and checked out, which talked 
about the justification for the destruction of Israel because 
Israel is an impediment to Islam, and all of this--you know, 
this hatred giving some kind of religious basis.
    You know, more than ever we need to be backing--and we 
certainly do in the United States--Rabbi Baker's mission, as 
well as the other two, which I'm so glad you have picked people 
who will really do the work. But this Commission remains 
absolutely committed in a bipartisan way to pushing these 
issues, because they are getting demonstrably worse.
    As I said before, we will be holding a hearing in March on 
the textbooks and the anti-Semitism that is rife in UNRWA 
camps, which, again, feeds into this whole combustible stew of 
hatred that is just exploding.
    So I thank you so much for your leadership. And we look 
forward to working with you. Any final thoughts before we 
conclude?
    Mr. Gilmore. Well, thank you. Thank you very much, 
Chairman. It's been a great privilege to have the opportunity 
of exchanging questions and answers----
    Mr. Smith. Yeah.
    Mr. Gilmore. ----and thoughts with you.
    I think that we have to work through 2012 and beyond to 
ensure that the commitments which have been entered into by the 
OSCE participating states are honored by all participating 
states, and that we deepen those where we can and that--I think 
we also, I think, as we approach the 40th anniversary of the 
Helsinki Final Act, I think it is worth reflecting on the huge 
contribution that the OSCE has made to peace and security in 
Europe and in that whole region, from--as we say, from 
Vancouver to Vladivostok.
    You think of the--when the Helsinki Final Act was 
concluded, the state of tension that there was between two 
superpowers and all of the attendant issues that surrounded 
that, and the progress that has been made over that period of 
time.
    We have the continuing conflicts, the protracted nature of 
those conflicts. We still have to deal with them and make a 
contribution to that this year. But we also have to deal with 
the new issues which are emerging, some of which we touched on 
today. And I think we have to work to find practical solutions 
to those.
    And I think some of the talks that we've exchanged here 
today and some of the suggestions that you have made, Chairman, 
I think will be extremely useful to us in carrying that work 
forward. So, again, I thank you for----
    Mr. Smith. Thank you.
    Mr. Gilmore. ----the huge interest that you have taken and 
that you are taking, and the work of the OSCE, and finally, in 
particular, the interest that you have taken over many years in 
our issues and affairs in Ireland. And it's great to be here 
among friends. Thank you.
    Mr. Smith. That's great. And I would like to thank you for 
Michael Collins, your ambassador. Again, I've been here over 
three decades, interfaced with ambassadors and people 
representing their countries. Nobody does it with greater 
professionalism and integrity than he does. He has been a joy 
to work with. And I know members on both side of the aisle feel 
that way. So, thank you so much for Michael Collins.
    The hearing is adjourned.
    [Whereupon, at 1:30 p.m., the hearing was adjourned.]
                            A P P E N D I X

=======================================================================


                          Prepared Statements

                              ----------                              


 Prepared Statement of Hon. Christopher H. Smith, Chairman, Commission 
                 on Security and Cooperation in Europe

    Good morning and welcome to everyone joining us this morning, 
especially Minister Gilmore, the Foreign Minister of Ireland and Chair 
in Office of the Organization for Security and Cooperation in Europe.
    It is a privilege to have you testify before us today, Mr. 
Minister, on Ireland's leadership of the OSCE. You are continuing a 
tradition that we have followed for more than a decade of hearing 
directly from the country holding the chairmanship of the OSCE.
    While today many countries in Europe are inwardly focused on 
economic crises, the world still cries out for global leadership. And 
Ireland has stepped up to the plate, accepting the 2012 chairmanship of 
Europe's largest regional security organization, the OSCE, which does 
its best work in promoting human rights, democracy, the rule of law, 
and free elections.
    Ireland has for a long time been one of the most constructive 
countries in the OSCE, enhancing the credibility of the organization it 
now leads. Mr. Minister, I thank you and your government for taking on 
the responsibility to lead the OSCE.
    Mr. Minister, the Helsinki Commission has a long history of 
engaging with the OSCE, both through and in cooperation with the State 
Department and independently, and as Chairman I am very happy with the 
priorities you have set for the Irish chairmanship--particularly the 
emphasis on Internet freedom and your plans to hold a meeting this year 
on that issue. I have recently introduced and am preparing to mark up a 
bill on this issue, the Global Online Freedom Act, which counteracts 
the efforts of many governments, including some in the OSCE, to 
purchase U.S. technology to transform the Internet into a tool of 
censorship and surveillance. Earlier versions of this legislation were 
also introduced in the European parliament. So I look forward to 
working with you on this issue.
    Your ideas for drawing on Ireland's experiences in the Northern 
Ireland peace process in reference to protracted conflicts elsewhere in 
the OSCE region also connects to a long-standing Commission priority--
since the mid-1990s we have held 13 hearings on Northern Ireland and 
the peace process, keeping the issue of police reform on our 
government's and the British government's agenda.
    Perhaps the key issue the Commission will be pursuing in the OSCE 
this year is international parental child abduction. Last year the 
Parliamentary Assembly passed my resolution urging the ``OSCE to take 
up the issue of international parental child abduction,'' and urging a 
ministerial decision on the issue. I believe the U.S. government agrees 
that this is an issue which could benefit from a ministerial decision 
this year--that is, the benefit would go to the children, who suffer as 
the number of international parental abductions continues to climb, 
while governments and national courts do not always live up their 
obligations under the Hague convention.
    Another important issue will continue to be the fight against anti-
Semitism, which, following a Commission hearing in May 2002, I and a 
number of other commissioners, including Co-Chairman Cardin, worked 
successfully to put on the front burner of the OSCE--resulting in a 
series of high-level and ministerial conferences on anti-Semitism and 
in a ministerial declaration on combating anti-Semitism--the 
implementation of which has been sadly lacking.
    The work of battling anti-Semitism is now being led by the Personal 
Representative, Rabbi Andy Baker, and I can't emphasize too strongly 
how important it is to support his work and the work of the other 
Personal Representatives--to do otherwise would be a tragic step 
backward.
    Mr. Minister, one of the reasons the United States so values the 
OSCE is that its work touches on so many human rights issues--I believe 
this is why you and the Irish Government, which certainly values human 
rights just as highly as the U.S. Government, will find your work this 
year rewarding. I look forward to hearing your presentation.

Prepared Statement of Hon. Benjamin L. Cardin, Co-Chairman, Commission 
                 on Security and Cooperation in Europe

    I welcome today's Helsinki Commission hearing with Ireland's 
Minister for Foreign Affairs and Trade, His Excellency Eamon Gilmore, 
currently serving as the Chair-in-Office of the Organization for 
Security and Cooperation in Europe.
    Ireland assumes this important leadership role amid numerous 
challenges, especially in the human dimension. Like other members of 
the Commission, I am grateful that the OSCE will benefit from clear-
headed Irish leadership amidst this host of trials. These include the 
ongoing crackdown in Belarus and lingering, unresolved issues stemming 
from the outbreak of conflict in Kyrgyzstan in 2010. The unsettled 
political situation in Russia, with presidential elections set for 
March, also warrants our close attention.
    The recent shooting of protesters by security forces in Kazakhstan 
may mean that Kazakhstan's repressive government is not or is no longer 
as stable as it has long claimed, and human rights violations may 
contribute to instability there. I want to express agreement here with 
the U.S. Representative to the OSCE, Ambassador Ian Kelly, who last 
year called 2010 a year of missed opportunities for reform in 
Kazakhstan--reform that could have put the country on a more secure and 
democratic footing today.
    I am also concerned about some of the areas that are not 
necessarily on the front pages right now. I have visited many of the 
countries in the Balkans in recent years, including Serbia last July. 
The OSCE has done so much to foster peace, security, and human rights 
in this part of the OSCE region--we must not leave business in the 
Balkans unfinished now. Bosnia and Kosovo are of particular concern to 
many of us right now.
    And while I am greatly interested in exploring ways to transfer 
lessons learned in the OSCE region to other areas, particularly in 
Mediterranean Partners, where the prospect of meaningful democratic 
reform is now before us, we must not overlook serious human rights 
problems that remain in some participating States. Turkmenistan and 
Uzbekistan remain the most repressive countries in the region, and 
their egregious human rights records deserve more attention.
    Even countries that have already achieved great accomplishments in 
advancing democracy and human rights can sometimes experience 
backsliding--as the United States knows all too well. In its most 
recent annual report on Freedom in the World, Freedom House voiced 
particular concern about backsliding in Hungary, Ukraine, and Turkey, 
warning that ``the democratic credentials of each is coming under 
question.'' Clearly, more must be done to ensure not only democracy's 
advancement, but to prevent it from slipping away. Like the United 
States, the European Union must openly address the situation in 
countries among its ranks if it hopes to be a credible voice for change 
in other OSCE participating States.
    I believe the OSCE has the potential to make significant 
contributions in all these areas, and I support the Irish Chairmanship 
as it seeks to maximize this potential.
    As Ireland takes on this task, I urge you to work with--and protect 
the independence of--your partners in this endeavor: the High 
Commissioner on National Minorities, the Representative on Freedom of 
the Media, and the Office for Democratic Institutions and Human Rights. 
Each of these institutions are making important contributions every 
day, from the High Commissioner's Bolzano Recommendations on Inter-
State Relations, to the ODIHR's on-going implementation of the EU grant 
for Roma integration in the Balkans, to the Representative on Freedom 
of the Media's tireless reporting on the day-to-day threats to 
journalists and free speech.
    Field Missions need to be given similar independence if they are to 
address the real challenges of post-conflict recovery and democratic 
development, including respect for the rule of law.
    I welcome the reappointment of the Personal Representatives focused 
on combating anti-Semitism and other forms of intolerance. The OSCE has 
developed a singular body of commitments in this area, but concrete 
implementation of them needs improvement. I am encouraged by Ireland's 
intention to continue work toward that goal.
    Finally, this year I am concluding my second three-year term as a 
Vice President of the Parliamentary Assembly. Before taking this 
position, I also served as a Committee Officer for several years. I 
have enjoyed this active engagement in the OSCE process and believe 
that parliamentarians and diplomats are both essential to its success. 
I hope you agree, Mr. Minister, and will strive to maximize the impact 
of both.

                                 <all>




                                     

  
This is an official publication of the
Commission on Security and
Cooperation in Europe.

<SUP><</SUP> <SUP><</SUP> <SUP>< </SUP>

This publication is intended to document
developments and trends in participating
States of the Organization for Security
and Cooperation in Europe (OSCE).

<SUP><</SUP> <SUP><</SUP> <SUP>< </SUP>

All Commission publications may be freely
reproduced, in any form, with appropriate
credit. The Commission encourages
the widest possible dissemination
of its publications.

<SUP><</SUP> <SUP><</SUP> <SUP>< </SUP>

http://www.csce.gov     @HelsinkiComm

The Commission's Web site provides
access to the latest press releases
and reports, as well as hearings and
briefings. Using the Commission's electronic
subscription service, readers are able
to receive press releases, articles,
and other materials by topic or countries
of particular interest.

Please subscribe today.
</pre></body></html>
